CERTIFICATE OF WORD COUNT
NO. 19-1181
The Estate of Thomas Steinbeck et al.,
Petitioners,
v.
Waverly Scott Kaffaga,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the CALIFORNIA SOCIETY OF
ENTERTAINMENT LAWYERS AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER(S) contains 5096
words, including the parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
April 29, 2020

SCP Tracking: Baldavia-9100 Wilshire Blvd.,-Cover Cream

